September 25, 2009

VINCENT H. DEVITO, JR.
VICE PRESIDENT, CONTROLLER

SUBJECT:          Management Advisory - Financial Reporting Information Under the Postal
                  Accountability and Enhancement Act of 2006
                  (Report Number FT-MA-09-003)

This report presents the results of our review of financial reporting requirements
established by the Postal Accountability and Enhancement Act of 2006 (Postal Act of
2006)1 (Project Number 09BM001FT002). This self-initiated review addresses financial
and strategic risks. See Appendix A for additional information about this audit.

Conclusion

In general, the U.S. Postal Service, under the Postal Act of 2006, provides the
appropriate amount and type of financial reporting information to stakeholders through
its annual and quarterly Securities and Exchange Commission (SEC)-type reports,
Forms 10-K, 10-Q, and 8-K.2 Also, the Postal Act of 2006 gives the Postal Regulatory
Commission (PRC) oversight over the Postal Service and, through that authority,
requires the Postal Service to file three monthly financial reports with the PRC.3
Management generally provides those reports in a timely manner, and we believe the
PRC is entitled to the financial reporting information they request.

However, for non-regulatory stakeholders, we believe the PRC’s disclosure of one of
those monthly reports, the USPS Preliminary Financial Information (unaudited) report, is
not appropriate because:




1
  Public Law 109-435, signed on December 20, 2006, revises a number of provisions of the Postal Service’s
governing statute, codified in Title 39, U.S.C.
2
  See Appendix C for a definition of stakeholders.
3
  The USPS Preliminary Financial Information (unaudited) report contains both financial and operational information.
While our review focused on disclosure of financial information (operating revenue and expenses as well as net
financial information), we recognize the operational information in the report is preliminary and also subject to
change. The National Trial Balance report lists account balances and monthly activity for all Postal Service financial
accounts. The Statement of Revenue and Expenses report lists and compares year-to-date current and prior fiscal
year balances for all Postal Service revenue and expense accounts.
Financial Reporting Information Under the Postal                                             FT-MA-09-003
 Accountability and Enhancement Act of 2006


    •    No publicly traded company or similar government agency of those we
         benchmarked4 reported financial information more frequently than quarterly.

    •    The information has not been through the rigorous financial reporting processes
         similar to those that SEC-type reports have, including an independent review or
         other accountability, completeness, and accuracy controls to help ensure the
         integrity of the financial data. Therefore, the information is subject to greater risk
         of misinterpretation and misuse. Further, preparing this information with the
         same scrutiny as the SEC-type reports would place additional cost burdens on
         the Postal Service.

    •    The Postal Service is more likely to be at a competitive disadvantage when its
         competitors are not required to similarly report.

Two additional monthly reports, the National Trial Balance and Statement of Revenue
and Expenses reports, were filed under seal5 until August 2009 and, as a result, were
not subject to the concerns associated with providing monthly financial information to
non-regulatory stakeholders. However, under a new PRC rule,6 the Postal Service
recently requested withholding certain financial information from these two reports from
public disclosure. In August, the PRC posted redacted versions of the June 2009
National Trial Balance report and the Statement of Revenue and Expenses report to its
website. The U.S. Postal Service Office of Inspector General (OIG) believes complete
or redacted versions of these reports should not be posted; rather, these reports should
remain under seal, as the information is subject to the same concerns described for the
USPS Preliminary Financial Information (unaudited) report.

Amount and Type of Financial Reporting to the PRC

The PRC is entitled to the financial reporting information it requests. The financial
reporting the Postal Service provides helps the PRC meet its statutory compliance
determination obligations; enhances transparency and accountability; and facilitates
timely, sufficient, and accessible information. Therefore, we believe the Postal Service
is providing the appropriate type and amount of financial information to the PRC. See
Appendix B for our detailed analysis.

Amount and Type of Financial Reporting to Non-Regulatory Stakeholders

For non-regulatory stakeholders, we believe the disclosure of the operating expenses
and revenue as well as net financial information in the Postal Service’s USPS
4
  Only the Bureau of the Public Debt (BPD) reports more frequently than quarterly, but it does not operate in a
competitive environment like the Postal Service.
5
  The PRC does not post reports to the Internet or otherwise make them publicly available.
6
  Final Rule Establishing Appropriate Confidentiality Procedures, Order No. 225 (Docket No. RM2008-1) accepted
June 19, 2009, obligates the PRC to balance the nature and extent of likely commercial injury to the Postal Service
against the public interest in maintaining the financial transparency of a government organization which competes in
commercial markets.




                                                          2
Financial Reporting Information Under the Postal                                          FT-MA-09-003
 Accountability and Enhancement Act of 2006


Preliminary Financial Information (unaudited) report is not appropriate because that
information does not go through rigorous financial reporting processes to help ensure
the integrity of the financial data. In addition, it is submitted on a more frequent basis
than is required for similar government agencies and publicly-traded companies, so it is
more likely to place the Postal Service at a competitive disadvantage.

Legislative Intent

We determined that Congress enacted the Postal Act of 2006 in part to bring about
greater financial transparency by reporting in a fashion similar to that of publicly traded
companies. The Government Accountability Office noted in Congressional testimony
that the Postal Service’s annual, quarterly, and other periodic reports required by the
SEC can provide a comprehensive understanding of the Postal Service’s financial
condition and outlook as well as enhance transparency and accountability for all
stakeholders.7

Benchmarking

The 13 organizations we analyzed to identify the amount and type of financial
information they made available to the public all provided Forms 10-K, 10-Q, and 8-K,
but none of them provided additional monthly financial information. Therefore, we
believe it is appropriate for the Postal Service to provide only the SEC-type reports to
the public. See Appendix B for our detailed analysis.

Postal Service Position

Postal Service management and the former Chair of the U.S. Postal Service’s Board of
Governors (Governors) Audit and Finance Committee agreed the Postal Service should
submit current financial reports to the PRC. However, they do not believe it wise to
have such numbers posted publicly given that they are preliminary and without
interpretation. See Appendix B for our detailed analysis.

Stakeholder Positions

During our analysis, we also reviewed stakeholder congressional testimony and
comments regarding PRC proposed rules as well as talked to stakeholders to determine
their use of the data. We found there were opposing views about transparency and the
level of Postal Service financial reporting. See Appendix B for our detailed analysis.




7
 Implementation of the Postal Accountability Act of 2006, U.S. House of Representatives, Subcommittee on the
Federal Workforce, Postal Service, and the District of Columbia, February 28, 2008.




                                                        3
Financial Reporting Information Under the Postal                                          FT-MA-09-003
 Accountability and Enhancement Act of 2006


Blog Responses

Overall, our survey of public opinion8 showed 187 of 237 voters believe the Postal
Service is not disclosing the appropriate amount and type of financial information to the
public. Further, when asked what reports must be disclosed to the public, 50 of 100
voters indicated the Postal Service needs to provide all the financial reports listed in the
blog,9 including the two that are sealed. However, our analysis of the results showed
inconsistencies in responses and a general misunderstanding about the content of
some reports.

Regulation G Requirements

Regulation G requires SEC-regulated entities to ensure disclosures of unreviewed
financial information are accompanied by:

    •    A presentation of the most directly comparable financial measure calculated and
         presented in accordance with generally accepted accounting principles (GAAP).

    •    A reconciliation of the quantitative differences between the non-GAAP financial
         measure disclosed and that most directly comparable financial measure
         calculated and presented in accordance with GAAP.

Regulation G also directs that a regulated entity shall not make public a financial
measure that is misleading. If the Postal Service were to follow this regulation, it would
need to expend additional funds to add the disclosures and perform the appropriate
reconciliations on a monthly basis. We do not support that action.

We did not make any recommendations in this report. As a result, management chose
not to respond formally to this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.



                              John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment
8
  Obtained from a blog posting on June 29, 2009. The blog consisted of two questions and not all voters responded
to both questions.
9
  Our blog identified seven reports: Form 10-K, Form 10-Q, Form 8-K, Integrated Financial Plan, USPS Preliminary
Financial Information (unaudited) report, National Trial Balance, and Statement of Revenue and Expenses.




                                                        4
Financial Reporting Information Under the Postal       FT-MA-09-003
 Accountability and Enhancement Act of 2006



cc:     Joseph Corbett
        Mary Anne Gibbons
        William A. Lyons
        Stephen J. Nickerson
        Steven R. Phelps
        Julie S. Moore
        Bill Harris




                                                   5
Financial Reporting Information Under the Postal                                             FT-MA-09-003
 Accountability and Enhancement Act of 2006


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Act of 2006 made significant changes to the financial reporting and
governance responsibilities of the Postal Service and the PRC. The Postal Act of 2006
requires the Postal Service to file with the PRC multiple financial reports containing
information prescribed by the SEC. The information in these reports is equivalent to the
SEC’s annual Form 10-K, quarterly Form 10-Q, and periodic Form 8-K, and are referred
to as SEC-type reports. The Postal Service submitted its first SEC-type report, Form
8-K, on November 21, 2007.

The Postal Act of 2006 created the PRC as an independent regulatory agency with
oversight of the Postal Service, including the development of accounting practices and
procedures for the Postal Service and assurance of transparency through periodic
reports.

In April 2009, the PRC issued rules10 requiring the Postal Service to file the following
three monthly financial reports in addition to the Forms 8-K, 10-Q, and 10-K:

     •   A report listing operating revenue and expenses, as well as net financial
         information and operational data.11

     •   A report listing account balances and monthly activity for all Postal Service
         financial accounts.12

     •   A report listing and comparing year-to-date current and prior fiscal year balances
         for all Postal Service revenue and expense accounts.13

Additional PRC rules14 established procedures for assigning appropriate confidentiality
for non-public materials filed with the PRC. Under the new rules, the PRC will balance
the nature and extent of likely commercial injury to the Postal Service against the public
interest in maintaining the financial transparency of a government establishment
competing in commercial markets. The rules provide a mechanism for the PRC to
create greater financial transparency15 for matters relevant to the regulatory
responsibilities of the PRC.


10
   Final Rule Prescribing Form and Content of Periodic Reports, Order No. 203 (Docket No. RM2008-4), accepted
April 16, 2009.
11
   USPS Preliminary Financial Information (unaudited) report.
12
   National Trial Balance.
13
   Statement of Revenue and Expenses.
14
   Final Rule Establishing Appropriate Confidentiality Procedures, Order No. 225 (Docket No. RM2008-1), accepted
June 19, 2009.
15
   The SEC defines financial transparency as timely, meaningful, and reliable disclosures about a company’s financial
performance.




                                                          6
Financial Reporting Information Under the Postal                                       FT-MA-09-003
 Accountability and Enhancement Act of 2006


The Governors, particularly the Audit and Finance Committee, have taken interest in the
amount, type, and frequency of financial reporting information the Postal Service should
disclose to the public. To address this interest and support its due diligence
responsibilities, the Governors received training in FY 2007 on the reporting
requirements related to the Postal Act of 2006.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our review was to determine whether the Postal Service, as required by
the Postal Act of 2006, is providing the appropriate amount and type of financial
reporting information to its stakeholders. To address our objective, we:

       •   Reviewed information on 13 publicly traded organizations’ websites to determine
           the amount and type of financial information they provide and whether the Postal
           Service reported in a similar fashion.

       •   Benchmarked with six government organizations to determine the amount and
           type of financial information they provide to the public.

       •   Reviewed stakeholder congressional testimony and comments regarding PRC
           proposed rules on form and content of periodic reports and procedures for
           confidentiality.

       •   Contacted PRC management, Postal Service management, the Audit and
           Finance Committee of the Postal Service’s Board of Governors, and two mailing
           industry representatives to understand their positions related to financial
           reporting and transparency.

       •   Obtained public opinion using a blog.16

       •   Researched SEC Regulation G, which describes conditions for use of non-GAAP
           financial matters, for guidance on issues of data accuracy and misleading/misuse
           of data.

We conducted this review from May through September 2009 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management officials on
September 3, 2009, and included their comments where appropriate. We did not rely
on computer generated data for this review.

PRIOR AUDIT COVERAGE

The OIG has not performed prior audits related to this objective.

16
     A blog is a brief Internet commentary on a subject and invites reader comments.




                                                            7
Financial Reporting Information Under the Postal                                             FT-MA-09-003
 Accountability and Enhancement Act of 2006


                                APPENDIX B: DETAILED ANALYSIS

Amount and Type of Financial Reporting to the PRC

The PRC has broad powers to obtain financial information from the Postal Service,
including subpoena power. The Postal Act of 2006 requires the Postal Service to
provide annual and quarterly SEC-type reports (Forms 10-K, 10-Q, and 8-K) as well as
other annual financial reports. Further, under the Postal Act of 2006, the PRC can
request any additional financial reporting information it deems necessary to perform its
regulatory mission. The PRC has used this authority to request additional annual and
monthly financial reports. The Postal Service files 11 financial reporting documents17
with the PRC.

                  Name of Report                             How Often Filed                Sealed?
     Form 10-K                                                  Annually                      No
     Form 10-Q                                                  Quarterly                     No
     Form 8-K                                                  As needed                      No
     Congressional Budget Submission                            Annually                      No
     Annual Compliance Report                                   Annually                      No
     U.S. Postal Service Annual Report                          Annually                      No
     Integrated Financial Plan                                  Annually                      No
     Tax on Competitive Products                                Annually                      No
     USPS Preliminary Financial                                 Monthly                       No
     Information (unaudited)
     National Trial Balance                                       Monthly                     No18
     Statement of Revenue and Expenses                            Monthly                     No19

PRC officials told us they are satisfied with the overall level of financial reporting the
Postal Service provides. Further, the PRC is accustomed to receiving monthly financial
reports and due to the public’s concern over the Postal Service’s downward financial
trend, required the Postal Service to submit additional monthly reports. According to the
PRC, the financial information contained in these additional reports assists it in
preparing the Annual Compliance Determination report.19 They believe issues related
to publicly posting these reports have been resolved due to the new confidentiality
procedures now in place.

Based on its years of experience with the Postal Service preparing financial reports,
PRC officials stated that the benefit mailers and others receive outweighs any risk of

17
   We defined a financial reporting document in this report as a document containing numerical measures of historical
or future financial performance, financial position, or cash flows. It does not include numerical operational or
statistical measures.
18
   Prior to August 2009, the PRC sealed these reports. In August 2009, PRC posted redacted versions of these
reports.
19
   PRC’s written determination on the Postal Service’s compliance with applicable provisions of the Postal Act of
2006.




                                                         8
Financial Reporting Information Under the Postal                                             FT-MA-09-003
 Accountability and Enhancement Act of 2006


publishing unaudited or unreviewed financial information for non-regulatory
stakeholders to view. They advised that, historically, errors and adjustments to financial
reports have been minimal. The PRC believes more frequent reporting enhances
transparency and accountability and stressed the criticality of timely, sufficient, and
accessible information due to the recent financial and economic challenges facing the
Postal Service. In addition, the PRC relies on the public to contact them if questions
about interpreting the information arise.20 The PRC added that publicly available
monthly reports to Congress and the PRC will help keep Postal Service stakeholders
informed of changes in trends and allow for prompt reaction to changing circumstances.
The public representative appointed by the PRC also supported this position.

The PRC is entitled to the financial reporting information it requests. The financial
reporting the Postal Service provides helps the PRC meet its statutory compliance
determination obligations; enhances transparency and accountability; and facilitates
timely, sufficient, and accessible information. Therefore, we believe the Postal Service
is providing the appropriate type and amount of financial information to the PRC.

Benchmarking

The 13 organizations21 we analyzed to identify the amount and type of financial
information they made available to the public all provided Forms 10-K, 10-Q, and 8-K,
but none of them provided additional monthly financial information. One of the
organizations had published monthly sales data but recently stopped to focus on the
long term and escape the volatility of reporting monthly sales data. Its representative
also stated this places them in line with most other large retailers.

Of the six government organizations22 we benchmarked with to determine the amount
and type of financial information they provided the public, we found that:

    •    All prepared the equivalent of Form 10-Ks.
    •    The BPD and Tennessee Valley Authority prepared Form 10-Q equivalents.
    •    None prepared Form 8-K equivalents.
    •    Only the BPD reported more frequently than quarterly.

The BPD prepared a monthly Accountability Report that included the core financial
statements (Balance Sheet, Statement of Net Cost, Statement of Net Position,
Statement of Budgetary Resources, and Statement of Custodial Activity); however, the

20
   The public can use an icon on the PRC website to contact the PRC with questions. The reports themselves do not
specify who to contact should readers have questions or concerns regarding the data in the reports.
21
   These include two Fortune 500 companies and 11 large corporations across various sectors and numerous lines of
business.
22
   The six reviewed were the BPD, Bureau of Engraving and Printing, U.S. Mint, Tennessee Valley Authority, Federal
Deposit Insurance Corporation, and Pension Benefit Guaranty Corporation. The first three were selected to
represent entities with high levels of public trust comparable to the Postal Service. The second three were selected
to represent entities with market-oriented public service that were required to produce revenues to meet expenditures
comparable to the Postal Service.




                                                          9
Financial Reporting Information Under the Postal                                          FT-MA-09-003
 Accountability and Enhancement Act of 2006


Accountability Report and accompanying financial statements are not audited by an
independent body before publication. Even though the BPD publishes financial data
monthly, it does not operate in a competitive environment like the Postal Service.

Postal Service Position

The Postal Service informed us23 that its Form 10-Q quarterly reports are more
appropriate to provide to public, non-regulatory stakeholders than the monthly reports24
because they include extensive narratives, undergo a financial reporting process, and
are subject to key controls and independent review. Thus, the Form 10-Q reports are a
more useful and accurate source of financial information.

Postal Service management also considers the two sealed monthly reports25
inappropriate to provide to non-regulatory stakeholders because they expose the Postal
Service to market/economic risk. For example, disclosing advertising expenditures
could provide competitors with information on upcoming advertising campaigns and
potentially allow them to counter such efforts. In addition, management believes the
information in a third monthly report26 could be very misleading. For example, economic
events could occur during a given month or season of the year that may not occur again
during the year. Additionally, as financial information becomes more resolute through
the comprehensive quarterly closing process, the preliminary data in the first and
second months may be adjusted in the last month of the quarter. This action effectively
reduces the usefulness of the previous two monthly reports. Readers of Postal Service
financial information may not recognize these nuances and may incorrectly extrapolate
one-time or seasonal economic events to the whole fiscal year.

Further, since information in the USPS Preliminary Financial Information (unaudited)
report does not have accompanying narratives and is not subject to independent review,
it could be misused by those unfamiliar with the report. For example, the headline of a
story posted June 30, 2009,27 states “USPS Projects $677 Million Net Loss for May”
when actually it did not project anything. These types of misuse paint a financial picture
for the Postal Service that can confuse and mislead the public.

Postal Service management also stated in its comments on PRC Order No. 104 that
providing monthly financial data when competitors are not required to provide the same
information would constitute a competitive disadvantage. Based on a federal court
case,28 the ruling judge commented “…there is even more evidence that Congress


23
   Through interviews and our review of the Postal Service’s initial comments to PRC Order No. 104, “Notice of
Proposed Rulemaking Prescribing Form and Content of Periodic Reports” (Docket RM2008-4).
24
   The USPS Preliminary Financial Information (unaudited), National Trial Balance, and Statement of Revenue and
Expenses reports.
25
   The National Trial Balance and the Statement of Revenue and Expenses reports.
26
   The USPS Preliminary Financial Information (unaudited) report.
27
   FolioMag.com article at http://www.foliomag.com/2009/usps-projects-677-million-net-loss-may.
28
   Areih Gildor v. United States Postal Service, 491 F. Supp. 2d 305, 310 (N.D. N.Y.) April 27, 2007.




                                                       10
Financial Reporting Information Under the Postal                         FT-MA-09-003
 Accountability and Enhancement Act of 2006


intended USPS to operate on a level playing field with its private competitors, through
the enactment of the Postal Accountability and Enhancement Act.”

The former Chair of the U.S. Postal Service’s Board of Governors (Governors) Audit
and Finance Committee, speaking for the committee, supported Postal Service
management’s position, noting it was misleading and confusing to have monthly,
inconclusive numbers made public and that the quarterly reports provide the public with
accurate figures, careful analysis, and context. Further, the Audit and Finance
Committee and Postal Service have no problem providing monthly numbers to the PRC;
they just did not believe it wise to have such numbers posted publicly given that they
are preliminary and without interpretation.

Stakeholder Positions

During our analysis, we found there were opposing views about transparency and the
level of Postal Service financial reporting. For example,

    •   One stakeholder supported monthly reporting rules because they:

        •   establish a comprehensive system of periodic reporting requirements
            designed to satisfy the transparency and accountability objectives of the
            Postal Act of 2006;
        •   ensure meaningful public access to, participation in, and understanding of the
            development of Postal Service prices.

    •   Another stakeholder believed monthly financial data is not needed, and providing
        financial data without explanation does little to promote transparency.

    •   Two stakeholders believed the Postal Service is providing the appropriate
        amount and type of financial reporting information. Both representatives were
        familiar with the monthly reports posted on the PRC website and used them for
        different purposes. One used the USPS Preliminary Financial Information
        (unaudited) report to get a sense of Postal Service’s financial health; the other
        focused on the operational data also contained in the report. Regarding the
        sealed monthly reports:

        •   One representative said the sealed monthly Statement of Revenue and
            Expenses report would be useful to understand how the Postal Service is
            doing financially but was not interested in the sealed monthly National Trial
            Balance report.

        •   The other representative felt neither sealed report would be useful and had
            found the more frequent the reporting period the less reliable the information.




                                                   11
Financial Reporting Information Under the Postal                                            FT-MA-09-003
 Accountability and Enhancement Act of 2006


                     APPENDIX C: POSTAL SERVICE STAKEHOLDERS

For this review, we defined stakeholders as regulatory and non-regulatory. Regulatory
stakeholders are federal Executive branch entities Congress creates to be independent
of the executive departments, and to impose and enforce regulations free of political
influence. Based on this definition, the PRC was the only federal entity we identified as
a regulatory stakeholder of the Postal Service. Although Congress provides oversight, it
does not meet the definition of a regulatory stakeholder for this review. However,
financial information made available to the PRC is also reported and available to
Congress. We considered all other stakeholders to be non-regulatory, to include Postal
Service competitors, certain governmental entities, and mailing industry organizations.29




29
  The specific stakeholders we considered during our review included those entities involved or referenced in
testimony to Congress or comments to the PRC’s proposed rules related to financial reporting under the Postal Act of
2006.




                                                        12
